LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

June 24, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

DONALD C. KUPPERSTEIN V. IRENE SCHALL, PERSONAL REPRESENTATIVE OF
THE PROBATE ESTATE OF FRED KUHN; AND EXECUTIVE OFFICE OF HEALTH
AND HUMAN SERVICES OF THE COMMONWEALTH OF MASSACHUSETTS

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 3,455 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 24th day of June 2021.

